                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Increased Emphasis on
                     Strategic Sourcing
                     Can Result in Substantial
                     Cost Savings for EPA
                     Report No. 14-P-0338                   August 26, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Janet Kasper
                                                     Michael Petscavage
                                                     Richard Valliere
                                                     David Penman




Abbreviations

BPA            Blanket Purchase Agreement
EPA            U.S. Environmental Protection Agency
FSSI           Federal Strategic Sourcing Initiative
FY             Fiscal Year
GSA            General Services Administration
OAM            Office of Acquisition Management
OARM           Office of Acquisition and Resources Management
OIG            Office of Inspector General
OMB            Office of Management and Budget


 Are you aware of fraud, waste or abuse in an           EPA Office of Inspector General
 EPA program?                                           1200 Pennsylvania Avenue, NW (2410T)
                                                        Washington, DC 20460
 EPA Inspector General Hotline                          (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                   www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                    Subscribe to our Email Updates
                                                        Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.      Send us your Project Suggestions
                        U.S. Environmental Protection Agency                                                  14-P-0338
                                                                                                         August 26, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review               Increased Emphasis on Strategic Sourcing Can
The federal government               Result in Substantial Cost Savings for EPA
spends approximately
$500 billion on goods and             What We Found
services each year to support
its mission. Given the               Although the Office of Management and Budget issued          The EPA could save
increasing fiscal pressures          a policy memorandum on strategic sourcing in 2005            $30 to $60 million
facing the United States, there      expressing the need for agencies to leverage strategic       annually by fully
has been a renewed focus on          sourcing to the maximum extent possible, the EPA has         implementing its
maximizing efficiencies in the       been slow in implementing such efforts. Crucial              strategic sourcing
procurement process to               aspects, such as conducting spend analyses and               program.
achieve cost savings. One such       developing controls to ensure maximum agency
initiative is the use of strategic   participation, were either not developed or conducted timely. The Office of
sourcing as outlined in the          Management and Budget also encouraged agencies to participate in
Federal Strategic Sourcing           governmentwide solutions, known as FSSI, and advised agencies to consider
Initiative (FSSI).                   those being offered for commonly procured commodities first when contemplating
                                     acquisitions. Of the four solutions offered (print management, wireless services,
The purpose of this review was       office supplies and domestic delivery), the EPA only participated in the office
to determine whether the             supplies and domestic delivery solutions. The agency has been slow in
U.S. Environmental Protection        implementing strategic sourcing due to a lack of commitment in the initial stages
Agency’s (EPA’s) strategic           of the initiative and by proceeding cautiously as experience was gained. As a
sourcing program is gaining          result, the EPA has been missing out in cost saving opportunities and improved
efficiencies from existing           efficiencies in its procurement processes.
federal initiatives under the
FSSI mandate and the EPA              Recommendations and Planned Corrective Actions
was identifying and taking
advantage of strategic sourcing      We recommend that the EPA develop a plan of action to strategically source
opportunities outside of FSSI.       wireless services and print management. If the EPA’s plan is to source these
                                     commodities internally because it is not practicable under the FSSI initiative, we
This report addresses the            recommend that a price comparison analysis be performed to ensure the best
following EPA goal or                possible pricing is negotiated. We also recommend that the EPA develop and
cross-agency strategy:               implement policies and procedures to ensure that controls are in place so that all
                                     strategically sourced vehicles are utilized unless a valid exception is approved.
  Embracing EPA as a high-          The EPA agreed with our recommendations and provided a corrective action plan
   performing organization.          with dates for each recommendation.

                                      Noteworthy Achievements

                                     The EPA conducted a study of the agency’s acquisition function to realize cost
For further information,             savings and increase the efficiency and effectiveness of the acquisition function
contact our public affairs office    within the EPA. The study, known as the Centers of Expertise in Contracting,
at (202) 566-2391.                   details the challenges facing the EPA. The report identifies the value of strategic
                                     sourcing and estimates that, with a fully staffed strategic sourcing office, it can
The full report is at:
www.epa.gov/oig/reports/2014/        achieve potential cost savings of $30 to $60 million on an annual basis. The
20140826-14-P-0338.pdf               report provides recommendations on how to achieve a more efficient and effective
                                     acquisition process, and the EPA is currently evaluating these recommendations.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                        THE INSPECTOR GENERAL



                                             August 26, 2014

MEMORANDUM

SUBJECT:       Increased Emphasis on Strategic Sourcing Can Result in
               Substantial Cost Savings for EPA
               Report No. 14-P-0338

FROM:          Arthur A. Elkins Jr.

TO:            Craig Hooks, Assistant Administrator
               Office of Administration and Resources Management

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The office responsible for implementing the recommendations is the Office of Acquisition Management,
within the Office of Administration and Resources Management.

Action Required

In accordance with EPA Manual 2750, your office provided acceptable and complete planned corrective
actions in response to OIG recommendations. All recommendations are resolved and no final response to this
report is required.

We will post this report to our website at http://www.epa.gov/oig.
Increased Emphasis on Strategic Sourcing                                                                                   14-P-0338
Can Result in Substantial Cost Savings for EPA



                                   Table of Contents

 Chapters
   1     Introduction ......................................................................................................     1

                 Purpose .....................................................................................................   1
                 Background................................................................................................      1
                 Noteworthy Achievements .........................................................................               3
                 Scope and Methodology ............................................................................              4

   2     EPA Not Participating in FSSI to the Greatest Extent Possible.....................                                      6

                 Policy Highlights the Importance of Leveraged Buying ...............................                            6
                 EPA Participation in FSSI Initiative Limited ................................................                   6
                 Fiscal Year 2011 FSSI Spend on Commodities Not a
                        Total Representation of Actual Spend ..............................................                      7
                 EPA Missing Out on FSSI Savings ............................................................                    8
                 Recommendations .....................................................................................           8
                 Agency Response and OIG Evaluation………………………………………..                                                             9

   3     EPA Slow to Implement Strategic Sourcing ...................................................                            10

                 Policy Issued on Implementing Strategic Sourcing .....................................                          10
                 EPA Slow in Implementing Strategic Sourcing ...........................................                         10
                 Lack of Early Commitment to Strategic Sourcing Delayed Progress ..........                                      11
                 EPA Not Realizing Full Benefits of Strategic Sourcing ...............................                           12
                 Recommendations .....................................................................................           12
                 Agency Response and OIG Evaluation ......................................................                       13

   Status of Recommendations and Potential Monetary Benefits .............................                                       14



 Appendices
   A     Agency Response to Draft Report...................................................................                      15

   B     Distribution .......................................................................................................    19
                                  Chapter 1
                                   Introduction
Purpose
            Given the increasing fiscal pressures facing the United States government, there
            has been a renewed focus on maximizing efficiencies in the procurement process
            to achieve cost savings. One such initiative is the use of strategic sourcing as
            outlined in the Federal Strategic Sourcing Initiative (FSSI).

            The U.S. Environmental Protection Agency’s (EPA’s) Office of Inspector
            General (OIG) conducted this audit to determine whether the EPA is gaining
            efficiencies from federal strategic sourcing initiatives and if the EPA is
            identifying and taking advantage of opportunities to increase strategic sourcing in
            areas not covered by federal initiatives.

Background

            Strategic sourcing is defined in the FSSI as “the collaborative and structured
            process of critically analyzing an organization’s spending and using this
            information to make business decisions about acquiring commodities and services
            more effectively and efficiently.” Because the federal government spends billions
            of dollars on goods and services, the Office of Management and Budget (OMB)
            issued a memorandum in May 2005 on implementing strategic sourcing. The
            memorandum explained the need to leverage spending to the maximum extent
            possible through strategic sourcing. OMB noted that strategic sourcing helps
            agencies optimize performance, minimize price, increase achievement of socio-
            economic acquisition goals, evaluate total life cycle management costs, improve
            vendor access to business opportunities, and otherwise increase the value of each
            dollar spent.

            OMB required agencies to develop a spend analysis and to identify no fewer than
            three commodities (goods and services) that could be purchased more effectively
            and efficiently through the application of strategic sourcing. Each agency was
            required to develop a strategic sourcing plan. The memorandum also noted that,
            beginning in January 2006, the Chief Acquisition Officer shall report annually to
            OMB regarding, at a minimum: reductions in the prices of goods and services;
            reductions in the cost of doing business; improvements in performance; and
            changes in achievement of socio-economic acquisition goals at the prime contract
            and, if possible, subcontract level.

            In response to OMB’s memorandum, the General Services Administration (GSA)
            issued multiple governmentwide procurement vehicles for commonly purchased
            commodities (GSA refers to these as solutions) so that agencies could place


14-P-0338                                                                                      1
                   orders against them. This initiative was referred to as FSSI. The common
                   commodities were:

                           Express and ground domestic delivery services.
                           Office supplies.
                           Telecommunications expense management services.1
                           Print management.

                   In 2007, OMB issued a follow-on memorandum encouraging agencies to focus on
                   governmentwide solutions first. The memorandum advised agencies that when
                   contemplating acquisitions for express and ground domestic delivery services,
                   office supplies, telecommunications expense management, or printers and copiers,
                   the GSA FSSI solutions should be used first.

                   EPA’s Strategic Sourcing Program and Organizational Structure

                   The Assistant Administrator for the Office of Administration and Resources
                   Management (OARM) formally initiated the EPA’s strategic sourcing program on
                   May 28, 2013. OARM provides national leadership, policy and management of
                   many essential support functions for the agency, including acquisition activities.
                   OARM’s Office of Acquisition Management (OAM) is charged with overseeing
                   EPA acquisitions.

                   OAM is responsible for planning, awarding and administering contracts for the
                   agency, including issuing and interpreting acquisition regulations; administering
                   training for contracting and program acquisition personnel; providing advice and
                   oversight to regional procurement offices; and providing information technology
                   improvements for acquisition. Under OAM, the Business Analysis and Strategic
                   Sourcing service center was formed in 2011 and administers the strategic sourcing
                   program. The purpose of the EPA’s strategic sourcing program is to ensure
                   improved efficiencies and economies in the agency’s acquisition programs, and to
                   ensure that acquisition programs deliver the best value for American taxpayers
                   and the EPA. The long-term objective of the strategic sourcing program is to
                   transform the EPA’s acquisition process from a tactical and reactive function to a
                   strategically driven function that ensures maximum value for every acquisition
                   dollar spent. The plan has five objectives but has not yet been formally finalized.
                   Those five objectives are:

                           Reduce the total cost of ownership for acquired goods and services.
                           Optimally leverage small and disadvantaged business participation.
                           Standardize and streamline acquisition business processes.
                           Improve visibility about acquired goods and services.
                           Establish collaborative participation and support for strategic sourcing
                            within the EPA.


1
    The telecommunications expense management services solution expired in July 2013.


14-P-0338                                                                                              2
            Process Involved for Strategically Sourcing Commodities

            Strategic sourcing can use differing strategies to acquire commodities more
            effectively and efficiently. Strategies include leveraged buying, demand analysis
            for altering buying behavior, and achieving efficiencies through standardized
            acquisition processes. The first step, however, begins with an opportunity
            assessment.

            An opportunity assessment is an analysis of spending (spend analysis) and the
            identification of products and services for which strategic sourcing should be
            implemented. The process involves collecting, classifying and analyzing
            expenditure data to reduce procurement costs and improve efficiency. Typically,
            a spend analysis is conducted on a continual basis, and based on the results
            commodities are prioritized for future sourcing efforts. The prioritization factors
            in the amounts spent on commodities, potential savings that can be realized by
            strategically sourcing the commodity, and the degree of difficulty in sourcing the
            commodity. Once a commodity is identified and targeted for strategic sourcing,
            additional steps are taken during the process and extend past contract award. The
            figure below depicts the process of strategic sourcing at the EPA.




            Source: The EPA’s Draft Strategic Sourcing Plan, September 2013.



Noteworthy Achievements
            OAM was tasked to conduct a study of the EPA’s acquisition function with the
            objectives of realizing cost savings and increasing the efficiency and effectiveness
            of the acquisition function for all of EPA. The study, known as the Centers of
            Expertise in Contracting, details the challenges facing the EPA. The report
            identifies the value of strategic sourcing and estimates that, with a fully staffed
            strategic sourcing office of six to 10 staff, the EPA can achieve potential cost
            savings of $30 to $60 million each year. The report acknowledges the importance


14-P-0338                                                                                         3
            of a collaborative approach and provides recommendations on how to achieve a
            more efficient and effective acquisition process. Currently, OAM is in the process
            of evaluating these recommendations for a path forward. Additionally, based on
            its fiscal year (FY) 2013 spend analysis, the EPA has identified seven
            commodities to potentially strategically source and is actively assessing each
            commodity for future strategic sourcing. Of those commodities, the EPA plans to
            continue using GSA’s FSSI solution for office supplies. The seven commodities
            identified are:

                  Remedial Actions.
                  Student Services.
                  Lab Supplies.
                  Facilities Operations.
                  Wireless Services.
                  Conference Support Services.
                  Office Supplies.

Scope and Methodology

            We conducted this performance audit from December 2013 through June 2014
            in accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our findings and conclusions based on our audit
            objectives.

            To gain an understanding of the federal initiative for strategic sourcing, we
            reviewed OMB strategic sourcing memorandums dating from 2005 to the most
            recent one issued on December 5, 2012. We then reviewed the EPA’s strategic
            sourcing plan, internal guidance, and applicable subparts of the Federal
            Acquisition Regulation. Other documents that we reviewed were:

                  Annual progress submissions to OMB detailing strategic sourcing
                   activities.
                  Reported savings based on usage of GSA’s FSSI vehicles.
                  Reported savings for the EPA strategically sourced vehicles, including the
                   methods used in calculating the internal savings.
                  EPA’s FY 2011 spend analysis.
                  All strategically sourced EPA Blanket Purchase Agreements (BPAs).

            We interviewed pertinent headquarters contracting staff in OAM to determine
            how the EPA’s strategic sourcing program is being implemented and overseen.
            We interviewed contracting staff at the regional levels to obtain a regional
            perspective of the EPA’s strategic sourcing program. We interviewed the national



14-P-0338                                                                                      4
            purchase card program manager, and several other staff involved with
            government purchase cards to evaluate the controls and policies in place for
            ordering strategically sourced items using a government purchase card.
            Additionally, we interviewed GSA officials to determine how the EPA is utilizing
            GSA’s governmentwide FSSI vehicles, how savings are calculated when an order
            is placed, and any future initiatives that may impact the EPA.

            There were no prior audits impacting the objectives of this assignment. Therefore,
            follow-up on past recommendations was not conducted.




14-P-0338                                                                                    5
                                  Chapter 2
             EPA Not Participating in FSSI to the
                 Greatest Extent Possible
            The EPA has only participated in two of the four FSSI solutions offered. Of the
            four solutions available—domestic delivery, office supplies, print management
            and wireless services solutions—the agency only participated in the office
            supplies and domestic delivery solutions. While the EPA’s FY 2012 report to
            OMB indicates substantial use of two FSSI solutions, the data did not include
            purchase card transactions from non-FSSI vendors. In 2007, OMB issued a policy
            memorandum stating that strategic business solutions that leverage the vast
            buying power of the federal government is a top priority of the acquisition
            community and to focus on governmentwide solutions first. It advised agencies
            that when contemplating acquisitions they should first consider those being
            offered under the FSSI initiative. The EPA stated it has not participated in all
            solutions because they either were not practicable or the agency already had
            existing contracts in place for those services. By not fully participating in the
            initiative, the EPA is not receiving the benefits of savings through volume
            discounts afforded under strategically sourced vehicles. The lack of participation
            also diminishes the total collective volume for a given solution that otherwise
            would benefit all agencies.

Policy Highlights the Importance of Leveraged Buying
            OMB issued its initial strategic sourcing memorandum in May 2005. The
            memorandum explained the need to leverage spending to the maximum extent
            possible through strategic sourcing. It also stated that federal agencies are
            responsible for maximizing the value of each dollar and emphasized the need to
            purchase more effectively and efficiently through the application of strategic
            sourcing. In May 2007, OMB issued a follow-on memorandum stating that
            strategic business solutions that leverage the vast buying power of the federal
            government is a top priority for the acquisition community. The memorandum
            encouraged agencies to focus on governmentwide solutions and, when
            contemplating acquisitions, those offered under the FSSI initiative should be
            considered first.

EPA Participation in FSSI Initiative Limited
            At the time our audit was conducted, we determined that the EPA had been
            participating in the office supplies and domestic delivery solutions since the 2007
            memorandum, and was not participating in the print management and wireless




14-P-0338                                                                                     6
                 services solutions available governmentwide through the FSSI initiative.2
                 Table 1 summarizes FY 2011 expenditures associated with the two solutions with
                 which the EPA participated.

                 Table 1: EPA’s participation in FSSI solutions
                                                                                             FY 2011 % of
                                                  FY 2011 total          FY 2011           total spending on
                                                  spending on         amount spent         commodity going
                   Commodity description           commodity          through FSSI           through FSSI
                   FSSI Domestic Delivery 2           $762,874             $762,874                     100%
                   FSSI Office Supplies              $2,413,627           $2,413,627                    100%
                 Source: The EPA’s FY 2012 Acquisition Status Review Report.

                 The EPA did not participate in the FSSI solution for print management because it
                 had end user service agreements in place for equipment that it already owned, and
                 until recently the FSSI solution for print management did not have services for
                 existing equipment. As a result, the EPA has been using internally placed
                 contracts for these services. Additionally, the EPA stated that it has been
                 negotiating lower pricing under its existing contract for print management and
                 expects to finalize the modification to incorporate the new pricing in the near
                 future.3

                 For wireless services, the EPA did not participate in this solution because it was
                 not offered under the FSSI initiative until May 2013. Based on the Centers of
                 Expertise in Contracting report—a study conducted from April 2012 to March
                 2013—the EPA had 48 contracts in place for wireless services. In reviewing its
                 wireless service plans, the EPA stated it identified approximately 700 lines with
                 zero usage and either disconnected or suspended those lines, for what it considers
                 to be a potential cost savings of between $400,000 and $600,000 annually. The
                 EPA is also developing plans to strategically place its own wireless contracts,
                 once the existing ones expire, at what it says is better pricing than what the newly
                 awarded FSSI solution is offering.

Fiscal Year 2011 FSSI Spend on Commodities Not a
Total Representation of Actual Spend
                 While the information submitted to OMB for FY 2011 makes it appear that the
                 EPA is fully utilizing the FSSI solutions for office supplies and domestic delivery,
                 that is not actually the case. The EPA reported the amounts calculated and
                 provided by GSA. However, that information only includes transactions ordered
                 under the FSSI initiative—it does not include transactions the EPA made outside
                 of the FSSI initiative, such as transactions made using the government purchase

2
  At the time of our audit there were four active FSSI solutions. The telecommunications management solution
ended in 2013, while the wireless services solution began in 2013.
3
  Since the modification has not been finalized, we were not able to conduct a price comparison analysis between the
newly negotiated EPA rates or the rates contained in the newly awarded FSSI BPA.


14-P-0338                                                                                                         7
            card with non-FSSI vendors. For example, using the EPA’s FY 2011 spend
            analysis, we identified approximately 38,000 transactions totaling more than
            $5 million that were potentially related to office supplies. Conversely, the EPA
            reported $2.4 million in its submission to OMB with all expenditures ordered
            directly against a strategically placed vehicle.

            The EPA did not report all purchases for office supplies and domestic delivery
            services because it does not have the capability to link government purchase card
            transactions to specific BPAs in its systems. Currently, the only way to cross-
            reference purchase card transactions to specific BPAs is through logs maintained
            by each individual purchase card holder (for FY 2012, there were 1,370 active
            purchase card holders). These logs are held independently of each other and are
            not linked to a database. Given the large number of card holders, cross-
            referencing each transaction in this manner to ensure that an acquired commodity
            received the correct pricing is a daunting task.

EPA Missing Out on FSSI Savings
            By not fully participating in FSSI, the EPA is not receiving the benefits of savings
            through volume discounts afforded under strategically sourced vehicles. While the
            EPA is only one agency, the lack of participation across the federal sector can
            diminish GSA’s negotiating ability for future follow-on agreements. With
            increased participation, all agencies can realize greater cost savings when
            commodities do not lend themselves to internal sourcing.

            Additionally, the EPA does not have reasonable assurance that it is receiving the
            negotiated pricing established in the FSSI vehicles when government purchase
            cards are the method of payment. Until a system or method is developed to link
            these transactions, the EPA will not be able to perform in-depth analyses on
            spending, which could diminish its negotiating stance for future awards.

Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               1. Develop a plan of action to strategically source wireless services and print
                  management. If the plan is to source these commodities internally because
                  it is not practicable under the FSSI initiative, perform a price comparison
                  with established pricing under the FSSI solution(s) to ensure the best
                  possible pricing is negotiated.

               2. Develop a system or method to link purchase card transactions to BPAs.




14-P-0338                                                                                       8
Agency Response and OIG Evaluation
            OARM agreed to take corrective action in response to recommendations 1 and 2
            and provided completion dates of November 2014 and October 2014,
            respectively. We believe that the proposed corrective actions, along with the
            planned completion dates, meet the intent of the recommendations. These
            recommendations will remain open pending completion of the proposed
            corrective actions. The complete agency response to the draft audit report is in
            appendix A.




14-P-0338                                                                                      9
                                    Chapter 3
            EPA Slow to Implement Strategic Sourcing
              Although OMB issued a policy memorandum on strategic sourcing in 2005
              expressing the need for agencies to leverage strategic sourcing to the maximum
              extent possible, the EPA has been slow in implementing strategic sourcing.
              Crucial aspects, such as conducting spend analyses and developing controls to
              ensure maximum agency participation, were either not developed or not
              conducted timely. Additionally, to date the EPA has only strategically sourced
              one commodity. In OMB’s 2005 memorandum, it explained the need to leverage
              spending to the maximum extent possible through strategic sourcing. The
              memorandum noted that strategic sourcing helps agencies optimize performance,
              minimize price, and otherwise increase the value of each dollar spent. Due to a
              lack of commitment in the initial stages of the initiative and by electing to proceed
              cautiously, the EPA has been missing out in cost saving opportunities and
              improved efficiencies in its procurement processes. According to the EPA, it
              could save $30 to $60 million annually by fully implementing its strategic
              sourcing program.

Policy Issued on Implementing Strategic Sourcing

              OMB issued its initial strategic sourcing policy memorandum in May 2005. The
              memorandum explained the need to leverage spending to the maximum extent
              possible through strategic sourcing. OMB also noted that strategic sourcing helps
              agencies optimize performance, minimize price, increase achievement of socio-
              economic acquisition goals, evaluate total life cycle management costs, improve
              vendor access to business opportunities, and otherwise increase the value of each
              dollar spent. The memorandum required agencies to develop a spend analysis and
              to identify no fewer than three commodities that could be purchased more
              effectively and efficiently through the application of strategic sourcing. It also
              required that each agency develop a strategic sourcing plan with the following
              elements: (1) strategic sourcing governance, (2) goals and objectives,
              (3) performance measures, (4) communication strategy, and (5) training strategy.

EPA Slow in Implementing Strategic Sourcing

              Although OMB issued a memorandum on strategic sourcing in 2005 requiring
              federal agencies to enhance strategic sourcing efforts, the EPA has been slow in
              implementing a program. The approach taken in implementing its efforts was
              cautious—to act as experience was gained. This tactic was communicated in the
              EPA’s 2006 Annual Strategic Sourcing Progress Report, which stated:

                     The EPA’s vision is to proceed cautiously and learn from these
                     initial endeavors. As experience is gained and successes are


14-P-0338                                                                                        10
                   achieved, the agency will expand the program to include additional
                   commodities. The EPA’s strategic sourcing team will continue to
                   conduct opportunity analyses for the next phase of strategically
                   sourcing commodities. Additionally, the agency will closely follow
                   the FSSI efforts related to copiers, cell phone service, domestic
                   delivery services and IT hardware.

            While the 2006 annual progress report stated that EPA would expand the
            program, it was not until May 28, 2013, that the program was formally initiated.
            While the EPA developed a draft strategic plan and has been following the draft
            in the interim, as of May 2014 the strategic plan had not been finalized or
            approved. Furthermore, the EPA did not conduct its first comprehensive spend
            analysis until June 2012 and it was not until March 2014 that the EPA completed
            its next spend analysis for FYs 2012 and 2013.

            Since OMB’s 2005 memorandum, the EPA has only strategically sourced one
            commodity. On March 12, 2008, the EPA awarded two BPAs for laboratory
            supplies. However, those BPAs were allowed to expire in March 2013 without
            follow-on vehicles being issued. As a result, as of June 2014, the EPA did not
            have the ability to leverage its buying power with regard to laboratory supplies.

            Additionally, the strategically sourced BPAs were not used for the majority of
            laboratory supply purchases. In 2012, the EPA reported to OMB that a total of
            $24,665,889 had been expended for laboratory supplies in FY 2011. Of that, the
            EPA reported that 37 percent, or $9,126,379, was expended through strategically
            sourced vehicles. In analyzing the two strategically sourced BPAs, we determined
            that neither BPA had an obligation history associated with it in the EPA’s
            financial system. After obtaining and reviewing the calculations the EPA
            submitted for its reporting purposes, we could not substantiate the total
            expenditures or the expenditures reported through the use of a strategically
            sourced vehicle because the transactions were made via government purchase
            cards. As discussed in chapter 2, government purchase card transactions cannot be
            linked to a particular BPA in EPA systems. As such, the EPA does not have
            reasonable assurance that it ever received the negotiated pricing contained in the
            two BPAs.

Lack of Early Commitment to Strategic Sourcing Delayed Progress

            The EPA has been slow in implementing strategic sourcing due to a lack of
            commitment in the initial stages of the initiative and by electing to proceed
            cautiously as experience is gained. Prior to 2011, no specific office or service
            center was tasked with implementing strategic sourcing, which contributed to the
            EPA’s lack of a unified, cohesive effort in implementing its program agencywide.

            In addition, the EPA has provided limited direction to and communication with
            regional contracting and program offices. Although the EPA’s strategic sourcing


14-P-0338                                                                                       11
            plan has a communications strategy, the EPA’s dissemination of information in
            this area has been inadequate. In meeting with staff from one EPA region, we
            were told that the communication on strategic sourcing is not at the levels needed
            to ensure an effective program, and when communication was provided it was
            usually repetitive in nature. Since virtually all aspects of strategic sourcing are
            centered in headquarters and because there are no regional points of contact, the
            program may be unable to fully develop and accommodate regional needs.

            The EPA did not have controls, such as purchase card restrictions, in place to
            monitor the usage of its strategically placed laboratory supplies BPAs.
            Consequently, as reported in EPA’s annual progress report, those BPAs accounted
            for just 37 percent of all laboratory supplies that EPA purchased in FY 2011.

            Another contributing factor impeding the program is a lack of resources. Despite
            the fact that the EPA’s Centers of Expertise in Contracting report indicated that
            six to 10 staff members were needed to fully operate the program, there are
            currently only two full-time staff members assigned to carry out the day-to-day
            operations of strategic sourcing. Due to minimal staff, critical aspects—such as
            conducting spend analyses and developing controls for vehicle usage—were not
            developed or conducted in a timely manner.

EPA Not Realizing Full Benefits of Strategic Sourcing

            Given the increasing fiscal pressures facing all federal agencies, there has been an
            increased effort to maximize efficiencies in procurement processes to achieve cost
            savings. By not fully developing its strategic sourcing program in the initial stages
            of the initiative, the EPA has been missing out in cost saving opportunities and
            improved efficiencies in its procurement processes. The EPA’s Centers of
            Expertise in Contracting Study estimated that the EPA could save $30 to
            $60 million annually by fully implementing its strategic sourcing program.
            However, the EPA will not realize these potential cost savings unless a greater
            emphasis is placed on strategic sourcing. We believe these are funds that could be
            put to better use if strategic sourcing were fully implemented.

Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management, to achieve the estimated $30 to $60 million in annual
            cost savings:

               3. Develop and implement policies and procedures to ensure that controls are
                  in place so that all strategically sourced vehicles are utilized unless a valid
                  exception is justified.




14-P-0338                                                                                     12
               4. Develop a collaborative approach to strategic sourcing to best ensure ideas
                  from all contracting and program offices are considered agencywide and
                  strategic sourcing activities are implemented in a uniform manner.

               5. Evaluate OAM priorities and determine whether resources can be
                  allocated from lower priority work to the strategic sourcing program.

               6. Increase awareness of the strategic sourcing program by:

                       a. Developing and assigning regional points of contact.
                       b. Developing informational packets to be disseminated to
                          headquarters and regional offices to ensure that all acquisition
                          personnel, including purchase card holders and approvers, are
                          adequately informed on the strategic sourcing requirements and
                          initiatives.

               7. Approve and finalize a strategic sourcing plan, by the Chief Acquisition
                  Officer, that will be administered agencywide.

Agency Response and OIG Evaluation
            OARM agreed to take corrective action in response to recommendations 3 through
            7 and provided a completion date of December 2014 for recommendation 3, and a
            completion date of October 2014 for recommendations 4 through 7. We believe
            that the proposed corrective actions, along with the planned completion dates, meet
            the intent of the recommendations. These recommendations will remain open
            pending completion of the proposed corrective actions. The complete agency
            response to the draft audit report is in appendix A.




14-P-0338                                                                                    13
                                   Status of Recommendations and
                                     Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed     Agreed-To
    No.      No.                         Subject                          Status1        Action Official             Date      Amount       Amount

     1        8    Develop a plan of action to strategically source         O       Assistant Administrator for    11/30/14
                   wireless services and print management. If the plan                 Administration and
                   is to source these commodities internally because                 Resources Management
                   it is not practicable under the FSSI initiative,
                   perform a price comparison with established pricing
                   under the FSSI solution(s) to ensure the best
                   possible pricing is negotiated.

     2        8    Develop a system or method to link purchase card         O       Assistant Administrator for    10/31/14
                   transactions to BPAs.                                               Administration and
                                                                                     Resources Management

     3       12    Develop and implement policies and procedures to         O       Assistant Administrator for    12/31/14
                   ensure that controls are in place so that all                       Administration and
                   strategically sourced vehicles are utilized unless a              Resources Management
                   valid exception is approved.

     4       13    Develop a collaborative approach to strategic            O       Assistant Administrator for    10/31/14      $60,000     $60,000
                   sourcing to best ensure ideas from all contracting                  Administration and
                   and program offices are considered agencywide                     Resources Management
                   and strategic sourcing activities are implemented in
                   a uniform manner.

     5       13    Evaluate OAM priorities and determine whether            O       Assistant Administrator for    10/31/14
                   resources can be allocated from lower priority work                 Administration and
                   to the strategic sourcing program.                                Resources Management

     6       13    Increase awareness of the strategic sourcing             O       Assistant Administrator for    10/31/14
                   program by:                                                         Administration and
                      a. Developing and assigning regional points of                 Resources Management
                         contact.
                      b. Developing informational packets to be
                         disseminated to headquarters and regional
                         personnel to ensure that all acquisition
                         personnel, including purchase card holders
                         and approvers, are adequately informed on
                         the strategic sourcing requirements and
                         initiatives.

     7       13    Approve and finalize a strategic sourcing plan, by       O       Assistant Administrator for    10/31/14
                   the Chief Acquisition Officer, that will be                         Administration and
                   administered agencywide.                                          Resources Management




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.


14-P-0338                                                                                                                                         14
                                                                                         Appendix A

                    Agency Response to Draft Report
                                            July 24, 2014

MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Audit Report No. OA-FY14-0070
               “Increased Emphasis on Strategic Sourcing Can Result in Substantial Savings to
               EPA,” dated June 13, 2014

FROM:          Craig E. Hooks, Assistant Administrator

TO:            Janet Kasper, Director
               Contract and Assistant Agreement Audits
               Office of the Inspector General


 Thank you for the opportunity to respond to the issues and recommendations raised in the Office of
 Inspector General Draft Audit Report No. OA-FY14-0070 "Increased Emphasis on Strategic Sourcing
 Can Result in Substantial Cost Savings for EPA" dated June 13, 2014. The Office of Administration
 and Resources Management agrees with audit findings, and for all recommendations we have provided
 corrective actions and completion dates in Attachment 1 hereto.

 If you have any questions regarding this response, please contact John Bashista, Director, Office of
 Acquisition Management at 202-564-4310 or Lisa Maass, OAM's Audit Follow-up Coordinator, at 202-
 564-2498.


 Attachment




14-P-0338                                                                                       15
 ATTACHMENT I -RECOMMENDATION DISCUSSION

 Recommendation #1: Develop a plan of action to strategically source wireless services and print
 management. If the plan is to source these commodities internally because it is not practicable under
 the Federal Strategic Sourcing Initiative (FSSI) initiative, perform a price comparison with established
 pricing under the FSSO solution(s) to ensure the best possible pricing is negotiated.

 OARM agrees with this recommendation. OARM began the process of strategically sourcing the
 agency's wireless services in FY13. Part of that process included performing a price comparison
 between the Federal Strategic Sourcing Initiative and the negotiated rates under EPA's existing
 contracts for these commodities. In the 3rd quarter of FY14, OARM finalized renegotiation of its
 agreements with AT&T and Verizon at rates better than those currently available through FSSI.
 Those changes are currently in the process of being rolled out, and should be completed by
 November 2014.

 OARM renegotiated its print contract in March 2014 to reflect industry-wide structure (black and
 white vs. color) and the rates are now lower than FSSI's offering. Since previously FSSI did not
 offer rates for agency-owned equipment, FSSI pricing was not comparable since EPA owns its
 equipment. As a result, EPA did not consider FSSI pricing in the past. Additionally, a
 memorandum to encourage changes in behavior including reduced printing , and reduced color
 printing, double-sided printing, and less desk-top printing will be distributed agency-wide. In
 August 2014, OARM anticipates establishing an agency-wide Print Commodity Team to
 determine the best approaches for managin g both ongoing and future additional strategic sourcing
 printing efforts at EPA.


 Recommendation #2: Develop a system or method to link purchase card transactions to
 BPAs.

 OARM agrees with this recommendation. OARM is in the process of implementing PaymentNet
 agency-wide. This automated purchase card system bas a robust electronic purchase log feature
 which includes a drop down button and comment box allowing users to note whether the
 transaction was made using a Blanket Purchase Agreement. If a BPA was used, the BPA number
 must be annotated. Conversely, if a BPA was not used and should have been, cardholders will be
 required to justify why in the comment section of the purchase log. This process will enable EPA
 to validate data already being captured via GSA FSS and other agency-wide BPAs. Additionally,
 PNET will provide cardholders with uniform platform for recoding justification for non-use of
 agency-wide strategic sourcing purchasing vehicles. The PNET system will be deployed and will
 be mandatory for all purchase card users effective October 2014.

 Recommendation #3: Develop and implement policies and procedures to ensure that controls are
 in place so that all strategically sources vehicles are utilized unless a valid exception is approved.

OARM agrees with this recommendation. OARM is currently in the process of developing a
policy to make strategically sourced vehicles mandatory, if appropriate, depending on the goods
or services required and the sourcing strategy used. This policy will include an exception process
requiring users to justify reasons for not using a strategically sourced vehicle, although in some


14-P-0338                                                                                            16
 cases, the justification may be an exception for usage set forth in the contract vehicle. This policy
 document will be published agency-wide by December 2014.

 Recommendation #4: Develop a collaborative approach to strategic sourcing to best ensure ideas
 from all contracting and program offices are considered agency-wide and strategic sourcing
 activities are implemented in a uniform manner.

 OARM agrees with this recommendation. OARM has developed , vetted, and finalized an
 agency-wide Strategic Sourcing Plan which includes specific processes, roles, and
 responsibi lities to ensure a strong collaborate approach. This Strategic Sourcing Plan will
 be disseminated across the agency by October 2014.

Recommendation #5: Evaluate OAM priorities and determine whether resources can be allocated
from lower priority work to the strategic sourcing program.

 OARM agrees with this recommendation. OARM/OAM is in the process of conducting a
 reorganization through which it will better align its personnel and functions to support the
 accomplishment of the agency's mission. As a part of this process, OARM/OAM agrees to
 evaluate whether resources can be allocated from lower priority work to the strategic sourcing
 program. The reorganization is to be completed by October 2014.


Recommendation #6: Disseminate broader awareness of the program by:

         a. Developing and assigning regional points of contact.

         b. Developing informational packets to be disseminated to regional personnel to
            ensure that all acquisition personnel, including purchase card holders and
            approvers, are adequately informed on the strategic sourcing requirements and
            initiatives.

 OARM agrees with these recommendations. OARM is developing a communications and
 marketing plan for the strategic sourcing program. Formal implementation will begin by October
 2014. This plan will include headquarters and regional stakeholders for each commodity, as
 applicable.




14-P-0338                                                                                        17
Recommendation #7: Approval and finalize a strategic sourcing plan, by the Chief
Acquisition officer, that will be administered Agency-wide.

OARM agrees with this recommendation. OARM has developed, vetted, and finalized an
agency-wide Strategic Sourcing Plan which includes specific processes, roles, and
responsibilities to ensure a strong collaborate approach. The Strategic Sourcing Plan will be
disseminated across the agency by October 2014.




14-P-0338                                                                                       18
                                                                              Appendix B
                                    Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator, Office of Administration and Resources Management
Director, Office of Acquisition Management, Office of Administration and Resources
       Management
Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Deputy Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Director, Office of Regional Operations
Audit Follow-Up Coordinator, Office of Administration and Resources Management




14-P-0338                                                                                19
